<html>
<title> - [H.A.S.C. No. 115-50]HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2018 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







 
                        [H.A.S.C. No. 115-50]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2018

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

         SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES HEARING

                                   ON

                   DEPARTMENT OF THE AIR FORCE FISCAL

                      YEAR 2018 BUDGET REQUEST FOR

                     SEAPOWER AND PROJECTION FORCES

                               __________

                              HEARING HELD
                              MAY 25, 2017

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     
  

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-872                         WASHINGTON : 2018 
















             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                 ROBERT J. WITTMAN, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
BRADLEY BYRNE, Alabama, Vice Chair   JAMES R. LANGEVIN, Rhode Island
SCOTT DesJARLAIS, Tennessee          MADELEINE Z. BORDALLO, Guam
MIKE GALLAGHER, Wisconsin            JOHN GARAMENDI, California
DUNCAN HUNTER, California            DONALD NORCROSS, New Jersey
PAUL COOK, California                SETH MOULTON, Massachusetts
JIM BRIDENSTINE, Oklahoma            COLLEEN HANABUSA, Hawaii
STEPHEN KNIGHT, California           A. DONALD McEACHIN, Virginia
RALPH LEE ABRAHAM, Louisiana
                Bruce Johnson, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                          Jodi Brignola, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     3
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Seapower and Projection Forces.......     1

                               WITNESSES

Bunch, Lt Gen Arnold W., Jr., USAF, Military Deputy, Office of 
  the Assistant Secretary of the Air Force for Acquisition, U.S. 
  Air Force; Lt Gen Jerry D. Harris, USAF, Deputy Chief of Staff 
  for Strategic Plans and Requirements, U.S. Air Force; and Maj 
  Gen Scott A. Vander Hamm, USAF, Assistant Deputy Chief of Staff 
  for Operations, U.S. Air Force.................................     4

                                APPENDIX

Prepared Statements:

    Bunch, Lt Gen Arnold W., Jr., joint with Lt Gen Jerry D. 
      Harris and Maj Gen Scott A. Vander Hamm....................    29
    Wittman, Hon. Robert J.......................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Courtney.................................................    53

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    57
    
    
    
    
    
    
    
    
    
    
    
    
    DEPARTMENT OF THE AIR FORCE FISCAL YEAR 2018 BUDGET REQUEST FOR 
                     SEAPOWER AND PROJECTION FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                            Washington, DC, Thursday, May 25, 2017.
    The subcommittee met, pursuant to call, at 8:02 a.m., in 
room 2212, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. We will call to order the Subcommittee on 
Seapower and Projection Forces.
    And I want to thank all of the witnesses for joining us 
today.
    And thank you, for the members joining us for an early 
morning start.
    So today the subcommittee convenes to receive testimony on 
the fiscal year 2018 Air Force budget request regarding bomber, 
tanker, and airlift acquisition programs. The distinguished 
panel of Air Force leaders testifying before us today are: 
Lieutenant General Arnold W. Bunch, Jr., U.S. Air Force 
Military Deputy, Office of the Assistant Secretary of the Air 
Force for Acquisition; Lieutenant General Jerry D. Harris, 
United States Air Force Deputy Chief of Staff for Strategic 
Plans and Requirements; and Major General Scott A. Vander Hamm, 
United States Air Force Assistant Deputy Chief of Staff for 
Operations.
    Gentlemen, thank you for being with us today.
    The fiscal year 2018 budget request for projection forces 
continues to modernize and recapitalize critical Air Force 
weapon systems. I am pleased to see significantly increased 
investment in the B-21 long-range strike bomber and steady 
investment in procuring KC-46A tankers. The budget also 
continues to take solid steps to modernize the legacy Guard and 
Reserve C-130H tactical airlift fleet and recapitalize the 
high-visibility Presidential aircraft.
    That said, I continue to be concerned about the ability of 
our military to properly provide for our Nation's defense given 
the damage that sequestration may have had on our fiscal year 
2018 budget deliberations. Throughout the year in this past 
year in testimony to Congress, the Air Force senior leadership 
indicated the Air Force is one of the busiest, smallest, 
oldest, and least ready fleets in our history. It is my firm 
conviction, in light of the higher-end threats posed by China, 
Russia, Iran, and North Korea, that we provide the Air Force 
the resources it needs to fully support and, if possible, 
accelerate critical recapitalization programs.
    With regard to bombers, I fully support the critical B-21 
bomber program and am pleased to see that we are moving forward 
on this new platform, which is needed for projecting power over 
long distances and into denied environments. I look forward to 
assessing in better detail the classified portion of the B-21 
program to ensure progress on design and to assess proposed 
risk mitigation strategies.
    With regard to tankers, I am concerned that the KC-46A 
program continues to suffer delays. Even after overcoming 
initial setbacks, it is now facing a highly compressed test and 
certification schedule that has almost zero room for error. I 
look forward to hearing your thoughts on this program and 
whether or not the first 18 aircraft will be delivered in time 
to meet the adjusted October 2018 contract deadline.
    With regard to recapitalizing the Presidential aircraft, I 
want to ensure that the President has the capability to carry 
out the requirements of the office and that the American 
people, whose taxes fund these aircraft, do not have to pay one 
dime more than necessary.
    Lastly, I am concerned that this budget fails to provide 
the necessary resources to procure needed avionics upgrades. 
These upgrades will ensure that the entire fleet of tankers, 
airlifters, and bombers are able to operate safely in 
compliance with the FAA [Federal Aviation Administration]-
mandated next-gen [generation] air traffic management standards 
by January 1, 2020. The civilian aviation sector is rapidly 
moving towards compliance, and I am concerned that our military 
aircraft could be shut out of airspace they need for transit 
and training.
    While I am pleased that the Air Force's fiscal year 2018 
budget request makes up some lost ground over last year, I am 
concerned that the proposed budget directs the Air Force to 
make false choices between capability, capacity, and safety, 
when the undeniable reality is that our military needs all of 
the above. I firmly believe that what this subcommittee and the 
rest of Congress does about national defense and military 
readiness will be a defining issue.
    We need a strong Air Force equipped with the most capable 
aircraft that enable our men and women to carry out their 
missions effectively and safely. To do this we need leadership 
in national security. We need an unambiguous declaration that 
our national security is our preeminent responsibility.
    Once again, I want to thank our witnesses for participating 
in our hearing this afternoon, and I look forward to discussing 
these important topics.
    Obviously my clock is different than yours. The hearing is 
this morning.
    With that, I turn to my good friend and colleague, the 
ranking member of the subcommittee, Joe Courtney.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 27.]

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman, and thank you for 
holding this hearing on the 2018 Air Force budget request for 
the projection forces programs within our jurisdiction.
    And thank you, to all the witnesses, again for being here 
today.
    The tankers, bombers, and airlift programs that fall under 
the projection forces side of our panel's oversight serve as 
the backbone of our Nation's ability to bring and sustain the 
power that preserves our Nation's interests around the world. 
As we know all too well, however, these important aircraft all 
share the common enemy of age.
    The tankers and bombers in service today are largely legacy 
aircraft. These aircraft in most cases are much older than the 
airmen and women who fly and service them.
    That is why it will be critical that we ensure that the 
2018 budget properly invests in the refueling, mobility, 
maritime patrol, and long-range strike programs under our 
purview. Among other things, the budget continues to reflect 
the high strategic priority placed on two critical 
recapitalization programs: the KC-46A Pegasus tanker and the B-
21 long-range strike bomber. Both of these programs are vital 
to ensuring that our Nation can continue to support operations 
around the world and respond when needed.
    Another continued area of concern for me and this 
subcommittee is the modernization of our C-130H fleet. Back 
home in Connecticut the Flying Yankees of the 103rd Airlift 
Wing have largely completed their transition to the new C-130H 
flying mission. Half of their aircraft recently deployed 
overseas on their first combat mission, which was a capstone to 
years of effort to stand the unit up stemming from the 2005 
BRAC [base realignment and closure].
    As we all well know, the C-130H fleet is an aging one in 
need of modernization. This panel led the efforts in the 2015 
NDAA [National Defense Authorization Act] to unlock the 
avionics modernization program needed to upgrade these aircraft 
with the assistance, again, of some of the witnesses here this 
morning, to meet international airspace restrictions by 2020.
    A second phase of the program is focused on additional 
cockpit and technology upgrades. We have heard testimony about 
the progress made on both of these increments of the avionics 
modernization program and would appreciate any updates on how 
the 2018 budget supports these efforts.
    Along these lines, Congress has invested substantial 
resources into other C-130H modernization initiatives, such as 
upgraded engines and propellers. It is my understanding that 
funding provided in 2016 and 2017 is currently on hold pending 
the results of operational testing being conducted right now. 
Given the strong interest that we have in ensuring that the C-
130H remains relevant into the future, I would appreciate an 
update on this testing and the way ahead.
    Finally, over the last year Congress has made meaningful 
and bipartisan progress in limiting the impact of sequestration 
and Budget Control Act. While mitigating the across-the-board 
cuts in 2016 and 2017 with the 2-year budget deal was 
important, the fact remains that our Air Force, like the 
military at large, remains handcuffed by sequestration in 2018 
and beyond because that 2-year deal obviously has expired.
    World events will continue to further demonstrate just how 
important it is for all of us on this committee and colleagues 
on both sides of our aisle to come together to make the 
compromises needed to protect our security and support the 
needs of our Nation.
    I look forward to hearing from our witnesses and our 
colleagues on the subcommittee, Mr. Chairman, and I yield back.
    Mr. Wittman. Thank you, Mr. Courtney.
    Major General Vander Hamm, Lieutenant General Bunch, 
Lieutenant General Harris, I understand that you all are going 
to be providing a single combined statement so I will turn it 
over to you for presentation of that statement.

   STATEMENT OF LT GEN ARNOLD W. BUNCH, JR., USAF, MILITARY 
DEPUTY, OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
  ACQUISITION, U.S. AIR FORCE; LT GEN JERRY D. HARRIS, USAF, 
  DEPUTY CHIEF OF STAFF FOR STRATEGIC PLANS AND REQUIREMENTS, 
    U.S. AIR FORCE; AND MAJ GEN SCOTT A. VANDER HAMM, USAF, 
 ASSISTANT DEPUTY CHIEF OF STAFF FOR OPERATIONS, U.S. AIR FORCE

    General Bunch. Thank you, Chairman Wittman, Ranking Member 
Courtney, and other distinguished members of this subcommittee, 
for the opportunity to appear before you today. We appreciate 
your service and the support this subcommittee provides the 
United States Air Force, our airmen, and their families.
    You have already introduced who we are at here. My 
colleagues and I previous to this jointly prepared and 
submitted a written statement, and I ask that that be entered 
into the record, sir.
    Mr. Wittman. So moved.
    General Bunch. We will not go through that statement. 
However, I will provide the brief opening remarks on behalf of 
the group.
    For the past 70 years, from the evolution of the jet 
aircraft to the advent of the ICBM [intercontinental ballistic 
missile], satellite-guided bombs, remotely piloted aircraft, 
and many other accomplishments, your Air Force has been 
breaking barriers as a member of the finest joint warfighting 
team on the planet.
    For the last 27 of those 70 years we have been in 
continuous combat. During this period we employed airpower in 
ways never envisioned and delivered unparalleled support to 
combatant commanders, sister services, allies, and coalition 
partners.
    While providing this unmatched operational capability, 
budget realities have taken a toll on our ability to provide 
for the future joint force. These many years of combat have 
taught us much--most importantly that the demand for airpower 
has grown in every mission, in every domain, and in every 
location.
    The world has watched your Air Force operate and the world 
has adapted. Our adversaries have adapted their capabilities to 
strike at areas we depend on to execute our missions, adapted 
their defenses to reduce our ability to employ our forces, and 
adopted many of our tactics and techniques, all of which reduce 
our ability to employ forces.
    Today we face a world of ever-improving adversaries, 
increasing threats, and a persistent war against violent 
extremism. This changing environment of increasing demands and 
commitments, along with a limited pool of resources to address 
issues and the threat of Budget Control Act and sequestration, 
makes our mission of providing unmatched Global Vigilance, 
Global Reach, and Global Power ever more challenging.
    The result of these changes is a marked decrease in our 
technological advantage on the battlefield. Where I once as a 
research laboratory commander would have said that we had a 
decided advantage across all fronts, today, if asked, I will 
refrain that we lead in some technological areas--we retain our 
lead in some technological areas; however, in other areas 
potential adversaries are nipping at our heels or are shoulder 
to shoulder with us.
    To address the shrinking technology gap we must continue to 
invest in S&T [science and technology] and modernize our forces 
to ensure our most valued treasure, America's sons and 
daughters, have a decisive advantage when we send them into 
harm's way. We do not want to fight a fair fight.
    The fiscal year 2018 budget we submitted is the best 
balance of our readiness and modernization we could achieve 
within the fiscal constraints we face. We take this balanced 
approach seriously as we must be ready for today while 
simultaneously preparing for tomorrow's challenges.
    The budget request you received continues our emphasis on 
recovering readiness, filling critical gaps, and improving 
lethality. The budget invests heavily in our airmen, our most 
valuable resource; readiness; nuclear deterrence operations; 
space and cyber capabilities; combat air forces; and 
infrastructure. It supports the end strength growth we need to 
start to address combatant commanders' requirements while also 
focusing on pilot production.
    We continue to maintain and modernize the nuclear 
enterprise while also prioritizing the resiliency, future 
capabilities, and modernization of space capabilities to 
operate in increasingly contested domains.
    The budget also supports research, development, and 
fielding of game-changing technologies. As a department, we had 
to make tough choices in balancing capability, capacity, and 
readiness while focusing on modernizing the weapon systems. 
These decisions were not made easily or taken lightly, 
highlighting that unfulfilled requirements still remain.
    As you are aware, the budgetary needs of the Air Force 
exceed projected top-line funding, as demand for our Air Force 
capabilities currently far exceeds our supply. Uncertainty 
looms over the department as sequestration and Budget Control 
Act [BCA] caps return with this next year's budget.
    Budget stability remains vital, and relief of BCA limits is 
necessary for the Air Force to realize its long-term strategy 
and meet today's and tomorrow's demands. If the law does not 
change or we get relief, it would lead to a repeat of the 
negative consequences of sequestration seen in fiscal year 
2013. We request your engagement and assistance to ensure that 
we do not go down that path.
    General Harris, General Vander Hamm, and I look forward to 
answering questions from the committee this morning. Again, 
thank you for your continued support of the greatest Air Force 
on the planet.
    [The joint prepared statement of General Bunch, General 
Harris, and General Vander Hamm can be found in the Appendix on 
page 29.]
    Mr. Wittman. Lieutenant General Bunch, thank you for your 
opening statement.
    We will now go to Mr. Courtney.
    Mr. Courtney. Mr. Chairman, I will yield to the members on 
my side who were earlier than I was. They deserve it.
    Mr. Wittman. No problem. And we will go to Mr. Garamendi.
    The gentleman yields to the lady from Guam, Ms. Bordallo.
    Ms. Bordallo. I thank my colleague for being such a 
gentleman. And thank you, Mr. Chairman. And thank you, to our 
witnesses, for being here today.
    As you know, I am a strong supporter of modernizing our 
bomber force, which is a key component to both deterrence and 
engaging in current conflicts. And I am committed to ensuring 
that funding for the new long-range strike, the B-21 Raider, 
stays on track and that we continue to make critical 
investments in our high-demand, low-volume fleet. Long-range 
strike is a key component of national strategy, and B-21 will 
ensure that capability is present in the future.
    Last Sunday, gentlemen, we saw North Korea launch its 
second missile test in a week. It is clear that our deterrent 
capabilities are as important as ever as we continue to see 
threats proliferate across the globe.
    We also saw the importance of that deterrent capability 
last year, when all three bomber variants were deployed to 
Andersen Air Force Base on Guam--the first time they had been 
deployed together in the Pacific.
    I have a question for General Vander Hamm. As best you can 
in an unclassified setting, could you comment on how a system 
like the B-21 will improve the deterrent posture of our forces, 
particularly as it relates to the Pacific theater?
    General Vander Hamm. Ma'am, thank you for the opportunity 
to be here and testify.
    And first I would like to say thank you to each of you for 
the support that you give to our airmen total force and their 
civilians that live in your districts. Those that are serving 
downrange, it goes a long way to know that their families are 
being taken care of, so thanks for your support.
    To your question on the B-21 and its relevance to 
deterrence in the future, having myself flown all three bombers 
and had the chance to command all three bombers, the deterrent 
capability of long-range strike, which gives the most flexible 
arm of our deterrent triad, you know, the subs [submarines] for 
survivability, for responsiveness in the ICBMs, but that 
flexibility you get in the bomber force allows you to lift and 
shift capabilities around the world.
    Currently you have a continuous bomber presence in the 
Pacific AOR [area of responsibility] and on the island that you 
represent. That presence sends a message--not only a deterrent 
message, but it sends an assurance message that our umbrella 
extends to our partners in the region.
    The commitment to the B-21 is a commitment to the long-
range viability of that capability for now into the future. And 
as Air Force Global Strike Command works on its roadmap of the 
bomber force into the future, the B-21 is the big part of that, 
which is why we say we are looking for at least 100.
    So as they work through the exact number of bombers that we 
need, the lion's share of that will be the B-21 Raider. And its 
ability to message not only conventionally but with a nuclear 
deterrent sends a message into the mind of our adversary that 
today may not be the day that I want to mess with the United 
States.
    Ms. Bordallo. Thank you. Thank you, General. I guess this 
question would go to you, too.
    Now the Air Force leadership has indicated the intent to 
keep the B-52 in the inventory beyond 2050. It has also 
acknowledged that new engines would provide a 95 percent 
reduction in engine maintenance, virtually eliminating engine 
overhauls and reducing fuel consumption by 30 percent.
    Does the Air Force have a plan to re-engine the B-52 to 
take advantage of benefits that would afford in terms of future 
cost avoidance and operational benefits?
    General Bunch. So, ma'am, I will take that one----
    Ms. Bordallo. I am sorry.
    General Bunch [continuing]. If you don't mind.
    So we are--do realize that the engines we have on the B-52 
are not going to last through the life of the program. We are 
either going to have to do a service life extension program or 
we will have to procure new engines.
    We are looking at all of those options right now. We have 
some money in the 2018 budget to do some of those initial 
analyses and look at all those alternatives.
    And you are correct, ma'am, it is not just fuel savings; it 
is tanker savings, it is operational implications, it is 
manpower savings by not having to use as many maintainers on 
the flight line to be able to maintain those older engines, as 
well as what you talked about with the time it stays on the 
wing and the operational viability.
    Another factor that we will weigh into this are the 
diminishing manufacturing sources and the obsolescence that we 
face on many of the components that reside on the B-52 engine, 
such as constant speed drives and generators, and that we need 
to assess all of those to ensure that we have the growth 
potential for any power demands and we can maintain the mission 
capability rate.
    The Air Force is actively engaged in that. I got an update 
on it just last week on where we are at in the progress, and we 
are discussing with all the appropriate--and looking at all the 
alternatives for how we could or would fund that.
    Ms. Bordallo. Thank you very much, General. And, Mr. 
Chairman, I yield back.
    Mr. Wittman. Thank you so much, Ms. Bordallo.
    We will now go to Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. And it is good to 
see all of you. Appreciate all that you do for our Air Force, 
and especially good to see General Vander Hamm, who was 
commander of Whiteman Air Force Base when I was first elected.
    So I appreciate your long support for the Air Force and 
appreciate my co-chair of the Long-Range Strike Caucus, 
Madeleine--Madam Bordallo, and her questions about B-21. I kind 
of want to follow up on that.
    A very important program, and as your witness testimony 
states, the Air Force remains committed to a fleet size of 100 
B-21s, but I have heard different numbers from other people 
feeling like we need even more; and certainly, you know, even a 
range of some are advocating for up to 150. And as we have seen 
what happened certainly with the B-2 years ago, I have concerns 
that we are, you know, not going to end up with the amount that 
we truly need.
    So given the significant shortfall that we have in the 
bomber inventory and--do you believe that 100 is adequate? And 
should we be shooting for 150, or what is your perspective on 
that number?
    General Bunch. What we have briefed thus far is that we 
need at least 100, so we are not ruling out the fact that as we 
do more analysis we may need more. What we have looked at so 
far based on our extensive analysis looking at the campaign 
plans and looking at all the plans that are out there, we need 
at least 100 to be able to meet all those demands as well as 
meet the training requirements that we have.
    Those are all items that we will continue as we move 
forward, ma'am, to look at.
    Mrs. Hartzler. Okay. I will be watching that very closely, 
and happy to work with you to try to keep that number as high 
as we need. We need to provide what we need and not just what 
we can afford.
    And along with that, if we fund the B-21 at less than $2 
billion in fiscal year 2018, how would the development phase be 
impacted and would there be significant delays to the overall 
program?
    General Bunch. So, ma'am, we remain fully committed to the 
program. It is one of our top three priorities and we have 
fully funded it, in accordance with the Weapon Systems 
Acquisition Reform Act passed by the Congress, to the service 
cost position that was established by the independent cost 
estimate.
    So we remain and we are committed to putting in the money 
we need to execute the program. We need all the dollars that we 
have asked for to go into the program to stay on track so that 
we can deliver this vital capability that our Nation needs and 
continue to execute the program on the schedule that we are on.
    Mrs. Hartzler. Right. We look forward to that being filled 
in mid-2020s, so that will be here before we know it and we 
have gotta keep this--keep moving.
    I wanted to switch to the C-130. I think Ranking Member 
Courtney mentioned that, as well. Of course, Missouri has 
Rosecrans and we also have C-130s there. And they visited with 
me a couple times about the avionics.
    And I know you are planning to upgrade the cockpit avionics 
and displays of the older Air National Guard and Air Force 
Reserve C-130H aircraft, but there is concern among commercial 
vendors that the Air Force will overly rely on solutions that 
favor military specifications at the expense of commercial off-
the-shelf solutions that are already proven successful in the 
civilian world of aviation.
    So how would you address this concern while ensuring that 
the Air Force is running a process that encourages and does not 
limit competition?
    General Bunch. So, ma'am, I will answer it in two phases.
    I think everyone understands that our focus for the C-130 
fleet is making sure we are focused on safety, and then 
compliance, and then modernization. Those are the three main, 
and then a limited recapitalization in certain areas. Those are 
really our four-pronged approach for how I want to address 
this.
    The compliance is the AMP Inc-1 [Avionics Modernization 
Program Increment-1]. That is to meet the FAA mandates. We have 
fully funded that.
    We have recently awarded a contract to get that program 
started, and we are committed to getting all that done on the 
130H fleet so that we meet the 2020 mandates. That is in our 
budget; that is what we are driving to, and we are committed to 
that.
    We are using and looking at using commercial solutions in 
that, as well. That was part of the market research we did 
before we went on contract to make sure that we were not overly 
driving a solution that drove military things and capitalize on 
what commerciality we can.
    We are continuing to go through the work on AMP Inc-2. We 
have delayed some of the initial steps as we get the 
acquisition started, but we did that because we had a robust 
dialogue with the industry so that we could understand what 
commerciality we could apply to the program and not change the 
end date. So our goal was: save money, drive the commerciality, 
and still meet the end date that we have committed to you and 
is in our budget that we are going to do.
    So we are very focused on driving the solution. There will 
be areas that we have already researched where the military 
specifications can be met by commercial applications. There may 
be areas that we won't be able to do that, but we are actively 
researching that to ensure that we are taking as much of the 
benefit from commerciality as we can.
    Mrs. Hartzler. That is great. Thank you very much.
    Mr. Wittman. Thank you, Mrs. Hartzler.
    We will now go to Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. Generals, thank you 
so very much for your service.
    And, as you probably know, I represent both Travis and 
Beale. Those Air Force bases have almost all that you do except 
the C-130s. They also have some other platforms. Thank you for 
the support that you have given to both bases. The Beale now 
has the KC-135s unit will be there.
    Of the many investments that you have been making, the C-5M 
recently traveled from Travis to Japan without stopping in 
Alaska, saving some 14 hours and a whole lot of fuel and time. 
Well done, gentlemen. I suspect that the continued upgrade and 
the availability of the C-5Ms will play out all across the 
world in similar fashion.
    There are, however, some ongoing questions out there, so 
let's get to them.
    The KC-46. I don't think we have had an updated status 
report, although I know it is on all of our minds.
    General Bunch.
    General Bunch. So, sir, that is a great question and I 
thank you for the opportunity to talk about it.
    We are--still remain committed to the KC-46 program. We got 
all of the money and we have got everything lined in. We 
continue to team with Boeing.
    We are making steady but slower progress than we had 
anticipated. We are running into areas of--where we are being 
delayed through our airworthiness certification through the FAA 
process and delays in our test program.
    We are at this time going through a schedule risk 
assessment with Boeing as a joint effort. Ms. Costello and I 
will get an update on that next week and then we will be coming 
forward to let everyone know exactly where that is at.
    Right now Boeing remains committed to the RAA [required 
assets available] date that we set last year that we were going 
to. Our assessment right now shows that we are a little bit 
behind that schedule and that we continue to work with Boeing 
to try to pull that back.
    Boeing remains a very good partner in that they are 
applying resources and trying to do what they can to make that 
schedule. We continue to support their efforts by making sure 
we provide all the resources we need to execute that program, 
but right now there have been delays in the testing and we are 
monitoring that, and as soon as we get the schedule risk 
assessment we will come back and give everyone an update on 
where we are at on the program.
    Mr. Garamendi. If appropriate, can you describe what the 
specific delays are?
    General Bunch. So, sir, we are not executing the test 
program in the--at the pace that we had anticipated, and as we 
modify the--one of the things for getting FAA certification, as 
components are modified they have to be reviewed and approved 
by that process through the FAA. That has not gone at the pace 
that we would expect, and if you don't get that done then some 
of your testing that you would want to do are blocked--the test 
points you would want to do are blocked, so those are all 
aspects of what we are balancing out right now to try and get 
the program on track.
    Mr. Garamendi. Some of us on this committee also are on the 
Transportation and Infrastructure Subcommittee and the FAA is a 
problem there. Is the FAA part of this problem?
    General Bunch. We are partnering with the FAA, sir, and we 
have been partnering with the FAA on this program for an 
extensive period of time. We continue our dialogue and 
communication with them. I am not in a position that I would 
say that the FAA is a problem.
    Mr. Garamendi. I note the look on your colleagues' faces.
    General Bunch. No sir.
    Mr. Garamendi. We will let it go at that.
    All right. The buyback of the C-5As--I understand that 
there will be a couple of--or maybe more than a couple of the 
C-5As that are off the line that will be bought back in this 
budget. Is that correct?
    General Harris. Yes, sir, if I may address that. When we 
look at what the C-5 is capable of we have 12 C-5Ms in BAI 
[backup-aircraft inventory]. We put eight of them there in the 
2015 budget that we were hoping to bring back.
    And basically these are airplanes that have been flying, 
they are just not manned appropriately in the units' ops and 
maintenance to take care of them. So we are going to buy back 
two a year for 4 years if we are able to have a predictable 
budget to get the fleet back to a higher quality.
    Mr. Garamendi. And just a final quick question: The large 
aircraft countermeasure program, is it online? The troops in my 
area always want to make sure that they have the best 
protection possible.
    General Bunch. Okay, sir, you are asking about LAIRCM 
[Large Aircraft Infrared Countermeasures]. I apologize. I often 
use the--I hate to do it, but I will use the acronym. But my 
understanding is the programs that we are working on with the 
LAIRCM program, I have not gotten any updates that we are 
running behind any of the schedules we have committed to the 
warfighter.
    Mr. Garamendi. Thank you. Yield back.
    Mr. Wittman. Thank you, Mr. Garamendi.
    We will now go to Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Gentlemen, I want to go back to the KC-46A because I still 
have some questions. I didn't hear a date specific, and it may 
be that you don't have a date specific, but could you tell us 
if you do have a date specific? And if so, what is it?
    General Bunch. Sir, I would be--sir, I would not want to 
give you a date till I get the schedule risk assessment that we 
are working with Boeing and we have that dialogue. But then 
again, in light of how we have done all of our communication on 
the KC-46, I think we have been very transparent with all the 
committees on that program. As soon as we get that worked out 
we will come forward and we will brief everyone on where we are 
at.
    Mr. Byrne. I expected that was going to be your answer, 
that you are just not in a position to give it to us yet----
    General Bunch. Yes, sir.
    Mr. Byrne [continuing]. But I wanted to make sure we 
confirmed that today. And you are going to give that to us next 
week?
    General Bunch. Sir, I wouldn't say I am going to give it to 
you next week. What I would say is Ms.--I said next week--Ms. 
Costello and I will get a update the week of the--first week 
of--full week of June, and then once we get that update and we 
round it up to make sure that our senior leaders know what we 
are doing, we will make sure that we come over and explain to 
everyone where we are at.
    Mr. Byrne. As I recall, the award of this contract for 
Boeing, there was a competition and it was originally awarded 
to Airbus USA and then there was a challenge to that and there 
was a rebidding of it and Boeing came in with basically a--this 
is a new design. This plane didn't exist.
    General Bunch. Sir, I would say it is different--it is a 
variant off of their 767 line that they already had up and 
running is how I would couch it. It is a tanker, but it--a lot 
of the components are similar to what they were doing on their 
commercial 767 line.
    Mr. Byrne. Do we have U.S. aircraft that are being refueled 
by some of our NATO [North Atlantic Treaty Organization] allies 
using the Airbus tanker?
    General Vander Hamm. Probably--if you look at the 
Australians, the Australians have an Airbus tanker.
    Mr. Byrne. So are----
    General Bunch. So, sir, let me--I will take that for the 
record to make sure that I give you an accurate answer. I know 
that there are other aircraft that we have gone through some 
certifications with and we have partnered as the U.S. 
government, because of our expertise in the area of air 
refueling, we have actually utilized some of our test personnel 
with expertise in those areas to go help countries get 
certified to do missions to support our efforts around the 
world.
    But I do not have a specific answer that I would feel 
comfortable giving you until I go do some research, but we will 
take that for the record to get you an accurate answer.
    Mr. Byrne. Thank you. And I didn't expect you to be able to 
give me a direct answer on that if you didn't have actual 
information, but I would love to know that.
    General Bunch. We will give you that information, sir.
    [The information referred to was not available at the time 
of printing.]
    Mr. Byrne. That is all I have. I yield back.
    Mr. Wittman. Thank you, Mr. Byrne.
    We will now go to Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. Good morning, to all 
of you.
    I wish that we could take these subjects in isolation and 
other branches of our service in isolation, but we can't. Like 
those of us who are on Strategic Forces [Subcommittee] at 10 
o'clock this morning will begin Fiscal Year 2018 Priorities of 
the Nuclear Forces and Atomic Energy Defense Activities, which 
is, according to your testimony, you--Air Force basically 
operates two-thirds of the triad. And, of course this all 
relates back to that wonderful thing called the triad.
    So I guess my question is this: If you are going to assist 
us in understanding your relevance and your importance and your 
continued need for the support in the fiscal year 2018 to 
operate two-thirds of the triad--and as you know, there has 
always been a discussion as to whether or not the triad is very 
relevant in the upcoming challenges that we have. Some have 
said that when you have China, Russia, and North Korea as your 
major--as our major threats in the area of nuclear that each 
one of those components does not necessarily fit the triad. The 
triad is an, I guess, agreed-to reaction to the Cold War and it 
was the answer to Russia.
    So having said that--and you are in Seapower; that is the 
committee we are in. And of course you have the issue of the 
nuclear submarines that we are dealing with, as well.
    Explain to me as best as you can why the priority should be 
as you have stated, which is, as you represent two-thirds of 
the triad, that we should be 100 percent behind supporting like 
100 B-21 bombers versus maybe another 2 Columbia-class subs. 
And it is because it--we don't have an unlimited supply of 
money, so we have got to--we are the ones who are going to end 
up balancing this.
    And my problem is if we talk to you all in isolation you 
all make great arguments. However, that is not the way the 
world exists.
    So explain to me why we should support what you want even 
at the cost of other platforms.
    Who wants to take that?
    General Harris. Ma'am, I would be happy to start with that.
    Ms. Hanabusa. Thank you.
    General Harris. Because it is a long journey that you have 
asked to--for us to go down this road. I think all of the 
services support all three legs of the triad. Each one brings a 
different piece.
    As we talked about, the subs that you support through the 
Seapower are that force that is hard to get to while the oceans 
are still opaque.
    Our bomber force brings to us a flexibility and our ability 
to message, and that is very important in a deterrent role. But 
as you know, we also use those bombers in our conventional 
effort, so that is one of the few legs that gets multiple use 
on a regular basis that lives in both camps or is dual-role.
    And then our--the throw weight, the big firepower is our 
land-based ICBMs, so that will be our GBSD [ground-based 
strategic deterrence] effort. And that is our least expensive, 
although it seems to get the worst press when it comes to if we 
go to a dyad wouldn't it just be bombers and submarines. And I 
would think that would be an awful choice for us to make as a 
Nation.
    We need each one of these because, as you said, the threat 
is different from China than North Korea, than Russia, and each 
one of these has a strength against those different threats. We 
do need all three.
    Ms. Hanabusa. I understand that. My question, though, is we 
have a limited amount of money and we have to make the 
decision, so what is your best pitch that if it were down to 
whatever monies we have and we are not going to do everything, 
why is it that the Air Force component--primarily the big-
ticket item is B-21s--why is that the best way for us to go if 
we have to choose among two?
    General Bunch. So, ma'am, I will jump in, and I want to 
remind everybody we are going through a Nuclear Posture Review 
[NPR] so I don't want to get in front of our Secretary of 
Defense. I need to allow him the flexibility to listen to all 
aspects and go review this to make sure we come back.
    So what I will tell you about the B-21 is it--that makes it 
of value to us as the United States Air Force--and I would 
actually say we provide more than two-thirds of the triad when 
you consider the national command, control, communication 
network that we control about 75 percent of for the United 
States. So I would actually say we carry more weight than the 
two-thirds, but that is--who is counting?
    But on the B-21, it provides an unmatched flexibility to be 
able to reach out and touch anyone in the message. You can 
recall the bombers. You can send a message with a deterrent.
    So there is an unbelievable amount of messaging that can be 
done with that platform. You can do both the conventional and 
the nuclear mission once we get it certified for the nuke 
mission, which will occur 2 years after IOC [initial 
operational capability].
    So that is the reason for the B-21: that flexibility, the 
ability to recall, the ability to reach out and touch anyone. 
That is what that platform brings.
    Ms. Hanabusa. Thank you. I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Hanabusa.
    We will now go to Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman.
    Thank you all for being with us here today. It is always 
a--budget time is always a good time to review the kind of 
force we want to buy.
    I would like to follow up on that as well as the line of 
questioning that Mrs. Hartzler posed earlier about the B-21, 
which I think is especially important given our experience in 
buying the B-2, where we kept cutting planned procurement 
numbers until we ended up with what I believe to be a wildly 
insufficient number of exorbitantly priced aircraft.
    And in recent years I have seen highly varying accounts of 
how many B-21s we actually need to buy, with at one point the 
Air Force listing a range of 80 to 100. That is a variance of 
20 percent, which seems rather large given the bomber's 
importance to the force of the future. And as I understand that 
and as you have said today, we have settled on this 100 number, 
correct?
    General Bunch. At least 100.
    Mr. Gallagher. At least 100----
    General Bunch. Want to make sure I am real clear there: at 
least 100.
    Mr. Gallagher. Okay, well to that point, I mean, how did 
you--can you just give us sort of the logic, the strategic 
logic that allowed you to arrive at the 100 or the at-least-100 
number?
    General Bunch. So we base ``at least 100'' on analysis that 
we have done of all the ops [operations] plans and we looked at 
all of what we want the aircraft to do as well as the mission 
set that we would need for the training. So it is not just 100 
to go do missions; it is at least 100 to do all the training, 
to do the depot maintenance.
    So it is not just a number that we would immediately 
employ. So there are a lot of components that lead into that, 
but we based that off looking at our ops plans, doing analysis, 
running scenarios, and coming up with a number that we believe.
    So we believe it has been scrutinized by a lot of the 
department and we are comfortable that that is a minimum number 
that we need to be able to execute the Nation's missions that 
it has given us.
    Mr. Gallagher. So short of a change in those missions, we 
should consider 100 the floor for the----
    General Bunch. That is what we believe, sir.
    Mr. Gallagher. But then you have these alternative studies, 
like the AFA [Air Force Association] study led by retired 
Lieutenant General Mike Moeller, which concluded that the Air 
Force needed substantially more than 100. And his analysis was 
driven by a historical examination of past air campaigns in 
scenarios involving North Korea, Iran, and Russia.
    And in an unclassified report he found that we would need 
roughly 60 bombers for a North Korea scenario and 103 bombers 
for an Iran scenario. Moreover, he found a conflict with Russia 
could call for as many as 258 bombers, if I am getting that 
correct.
    And given that a two-war standard has traditionally been a 
critical measurement of our status as a superpower, it seems to 
me that the right number of bombers should be north of 160 in 
order to factor in Korea and Iran contingencies. And certainly 
Lieutenant General Moeller agrees and calls for as many as 200 
B-21s.
    So, I mean, I guess how would you respond to those outside 
analyses that sort of project far above the 100 floor?
    General Harris. Well, thank you. If I may add onto General 
Bunch's question then, sir, those numbers aren't incorrect. 
When we look at some of these efforts that are put out there, 
we do agree that probably 165 bombers is what we need to have, 
so there are numbers that support that depending on the 
scenarios.
    But in addition to the NPR that is ongoing, we also have a 
National Military Strategy. It is an internal look that the OSD 
[Office of the Secretary of Defense] is doing through the 
Secretary of Defense, and we don't want to get in front of 
that.
    So our approach to it is it is an early decision. We know 
we are going to need at least 100; we will possibly need more 
than that. But as was brought up earlier, these aren't 
inexpensive weapon systems across----
    Mr. Gallagher. Sure.
    General Harris [continuing]. This entire effort, so we 
don't want to throw down a number that may change in several 
months. So we would rather sit back, say 100 min [minimum] at 
this point----
    Mr. Gallagher. Sure.
    General Harris [continuing]. And then move on and so--until 
we get guidance from the Secretary.
    Mr. Gallagher. So your next decision point is you are going 
to wait for the National Military Strategy, analyze that, and 
come up with an updated requirement?
    General Harris. Yes, sir.
    Mr. Gallagher. Okay. And sort of to take a turn in a 
different direction, I have never been on Air Force One and so 
this question is probably the closest I will ever get, 
particularly if you follow my Twitter feed in recent days. The 
Air Force One plans on recapitalizing with two--and the 
chairman mentioned this--two 747-200 Presidential aircraft, 
which will be over 30 years old by the time they are replaced 
in the mid-2020s, and we are moving towards the two 747-800 
aircraft. The estimated cost, I believe, is $3.5 billion.
    So just kind of following up on what the chairman 
mentioned, I mean, how can we assure the American people, at a 
time when there is a lot of scrutiny around the President's 
travel, that these tax dollars are being properly used to 
provide what--the office of the President what is required, but 
at the lowest possible cost to the taxpayer?
    General Bunch. So, sir, I will answer that one. So it is 
important and we need to make sure that we can provide a 
platform that the President can execute the duties of his 
office regardless of the situation that we find our Nation in. 
That is one that we need to remember as we look at what that 
platform is going to provide and what that platform is going to 
do.
    We do understand the need to control cost. We understand 
that. That is an undertaking that we are going after.
    Right now we have a $172 million contract with Boeing on 
risk reduction. Part of that risk reduction is looking at the 
cost capability analysis and doing trades with what we can and 
can't do and letting us be smart buyers.
    The other thing that we have done is we have worked with 
the White House Military Office and the Air Force and we have 
now agreed on a set of requirements that we plan to hold firm, 
which is one of the reasons we have been able to keep the costs 
under control on the KC-46. So we will continue to hold firm 
with those requirements that we have now agreed to and 
established as the min needed to execute that mission.
    We have two other contract actions we are doing right now. 
One of those will be the procurement of the two aircraft. The 
next one we will do to get to a preliminary design review as 
quickly as possible.
    And then what we will do is use all of our acquisition 
authorities to get the max [maximum], and I would ask for max 
flexibility as we use those acquisition authorities so that we 
can go get a contract to get this done and meet the IOC.
    We plan on being substantive participants in some of the 
source selections that Boeing will do. That will be the prime; 
they will do some of the subcomponents; they will be doing the 
competition for those, but we will be substantive participants 
in that. And we realize we have to efficiently and effectively 
acquire these systems because it is American taxpayer dollars 
that we are worried about.
    Mr. Gallagher. Thank you, gentlemen. Appreciate you being 
with us here today. Thank you, Mr. Chairman. I yield.
    Mr. Wittman. Thank you, Mr. Gallagher.
    And we will now go to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, to the tardy member 
here.
    And again, thank you for the great testimony and great 
questions from my colleagues on the panel, particularly Mrs. 
Hartzler, you know, covered the C-130 issues nicely, which I 
did intend to focus on.
    So really only have one question, which is on the B-52 
modernization. Again, obviously this is a big piece of your 
planning in the future, and it has been a multiyear process 
that you have been involved in.
    And that is why when the budget came over it actually 
reduced by roughly $60 million the modernization efforts that 
have been built into the prior administration's--the Obama 
administration's funding for B-52 modernization. I was just 
wondering if you could explain, you know, that alteration.
    General Bunch. I do not have any of my program managers on 
the acquisition side coming to me right now and telling me they 
can't execute the programs that we have got laid in for the 
bombers. So without knowing exactly--with--I mean, if you look 
at what we are doing, we are doing the 1760 weapons bay 
upgrade; we are doing--finishing up the CONECT [Combat Network 
Communications Technology] program to give it more modern 
displays and to be able to connect and have it beyond-line-of-
sight; we are starting the radar modernization effort; we are 
doing our investigations into the re-engining.
    We have got a whole lot of programs that are going on right 
now to modernize and keep that platform viable and flyable and 
able to meet the demands of tomorrow. My take on that would be 
that all we have done is change it for the fact of life of 
where we are at in the programs.
    I am not aware of any program that we have stopped or any 
program that I have hindered by the ability that we have put in 
for the budget.
    Mr. Courtney. So again, that number that--the new number is 
adequate?
    General Bunch. That is my belief, sir. And I will go back 
and do an investigation, and if it is different than that I 
will personally get back to you and your staff and let you know 
that.
    [The information referred to can be found in the Appendix 
on page 53.]
    Mr. Courtney. Great. Thank you. Yield back.
    Mr. Wittman. Thank you, Mr. Courtney.
    Lieutenant General Harris and Bunch, I wanted to talk a 
little more about the Presidential aircraft program. The 
President's budget request for fiscal year 2018 has a dollar 
amount of $434 million that are requested. The request reported 
last year was $625 million, so it was a $191 million reduction.
    First of all, is that something that the Air Force is in 
agreement with? Is it something that the Air Force requested? 
And can you tell me where that 30 percent reduction leaves us 
in first of all making sure we deliver those aircraft on time 
and making sure, too, that we are on track with cost reductions 
on construction of the aircraft?
    So any delays, obviously, that happened there, especially 
with Boeing, can have financial impacts, so I want to kind of 
get your perspective on where we are with that.
    General Bunch. Yes, sir. Thank you for that question.
    We are fine with the budget that is put in. Its rephased 
dollars align with our acquisition strategy that we are going 
for and we are not anticipating any changes to the dates that 
we have predicted for when we would deliver.
    Mr. Wittman. Very good. And you are still continuing on 
track with cost projections on the aircraft? I know we have had 
some discussions about mechanisms to use to make sure that we 
get the best price possible but also provide the Air Force some 
flexibility for the Air Force also to be able to get the best 
price possible.
    General Bunch. So, sir, we understand the critical nature 
of making sure that we control the cost on this program. We are 
very focused on that. I think you can see the level of 
attention the Air Force put on that by designating one of our 
most experienced PEOs [program executive officers], Major 
General Duke Richardson, putting him solely in charge of that 
after his great run of executing the KC-46 program and keeping 
that program on track. So I believe that shows to the committee 
and everyone our commitment to making sure that program is 
executed properly.
    What we would ask is that we are allowed to work with you 
if we decide on language we want to try to put for how we would 
want to structure what we are limiting ourselves to from a 
contracting perspective or a cost perspective so that we all 
understand the ramifications of those things, and we are doing 
it in a collaboration because we need flexibility to use all 
the acquisition authorities that we have while still 
understanding that this is a critical program to the committee 
and to the American public that we need to make sure we are 
executing properly.
    Mr. Wittman. And we are absolutely committed to that. I had 
a great meeting the other day with Lieutenant General 
Richardson and his efforts to make sure that the cost controls 
are placed on that program and that we have all of the 
different viewpoints necessary both with Boeing, the Air Force, 
Congress, and the administration to make sure we get the best 
price possible for the taxpayers, as I spoke about.
    Lieutenant General Bunch, I wanted to also try to develop a 
little bit better understanding of the Air Force's efforts with 
the Compass Call mission equipment. As you know, you all have 
appointed L3 as the lead systems integrator and empowered them 
to make aircraft procurement decisions in order to re-host the 
Compass Call mission equipment.
    And I wanted to get your perspective on why the Air Force 
is moving in this direction for critical mission components, 
and if you can give me an example about how you have used this 
mechanism using private entities in the past versus it being 
done within the Air Force or at least within a government 
entity, within the Air Force Secretary's office. Give me your 
perspective on how the decision making took place there and why 
you believe that L3 is going to be able to perform and make the 
critical decisions necessary on this critical program.
    General Bunch. So, Chairman Wittman, that is a great 
question and I will let everybody know that it is in the media 
this morning that Boeing did file a protest last week that is 
now playing out. We will let the GAO [Government Accountability 
Office] work that.
    We, the Air Force, remain committed to the acquisition 
strategy that we have brought forward to address this critical 
need, so we will stay pretty--I won't go into devil in the 
details; I won't go into a ton of that. But I will give you an 
overarching what we were trying to do.
    And last year in the 2016 congressional language we were 
told to go look at--do analysis of alternatives, look at a 
variety of different options for what we would do for the EC-
130H fleet. After looking at all those, the most cost-effective 
and the most efficient and the most timely--timely being one of 
the critical components of what we are trying to do--came back 
with the approach of designating a systems integrator.
    We do not use the ``lead'' part of that. There are specific 
acquisition things that are tied to being a lead system 
integrator. This is a systems integrator, sir, just to make 
sure that I am real clear on the words that I am trying to use.
    And we picked that because the L3 has been--played that 
role as the systems integrator as we have modernized these 
aircraft for the last 15 years. They are the ones that are very 
familiar with the mission equipment that is on there.
    That mission equipment is highly classified to be able to 
execute the electronic warfare mission that we asked that 
platform to do. They have all the tooling; they have all the 
existing knowledge; and they have the modeling and all the 
information to do that work.
    This is a, for the preponderance of this, a non-
developmental effort, meaning that we have had a robust and 
extensive program of modernizing the mission equipment to be 
able to meet the demands of the EC-130H mission over the years, 
and most of that will be simply cross-decked over and the--so 
they have the knowledge, having done that work, having 
installed that mission equipment.
    And then the last item that would be there is the short 
timeline. Our analysis showed that we could do it through this 
means and do it quicker than we could any other way, getting a 
critical need to address something out in the future--a threat 
that is evolving that if we need more details we can go to a 
different classification level and we will be happy to brief 
anybody on that.
    Mr. Wittman. Very good. Want to get to the decision-making 
element here, and it seems like what you are saying is that 
there is some advantage, then, gained by using a private entity 
like L3, based on their experience and outcomes as it relates 
to decision making within this critical realm as to integrating 
systems on this--on the application of Compass Call. Is that 
correct?
    General Bunch. There are advantages of that. And what I 
want to make sure, sir, and I apologize I left this part out: 
We are not stepping out of this and just watching the process 
play out.
    What we are doing is we will thoroughly review their 
aircraft selection decision to ensure that it was 
comprehensive, impartial, and compliant with all the applicable 
statutes and regulation. So we are not, as I said earlier on 
the PAR [Presidential Aircraft Recapitalization], we are going 
to be substantive partners. We will allow the system integrator 
to come in and give us a report of what they have done and we 
will analyze and scrutinize that and ask what questions we need 
to make sure that we are--that it was fair and there--it was 
equitable and we made that decision.
    The other piece that we will do on this is all of the 
routine things that we do in acquisition where we ensure that 
it is cost compliant, fair and reasonable with DCMA [Defense 
Contract Management Agency], DCAA [Defense Contract Audit 
Agency]. All those things will be done in this program, as 
well.
    Mr. Wittman. Very good. You had spoken about L3 being 
systems integrator, not lead systems integrator. I just want to 
make sure; there seems to be some disagreement there within the 
Air Force.
    On January 31st of this year Lisa Disbrow, who is the 
acting secretary, wrote a letter to Senator Murray and she 
stated, ``Extensive analysis determined this lead systems 
integrator approach is the most efficient, expedient, and cost-
effective means to re-host the Compass Call capability into 
non-developmental commercial derivative aircraft.'' So it seems 
that the secretary there is denoting this as a lead systems 
integrator, so I just want to make sure that we are straight in 
how you determine and say that L3 would not be the lead systems 
integrator.
    General Bunch. So, sir, I will go back. I think I have 
submitted a subsequent letter that said it would be a systems 
integrator. I may not have that exactly right. But what I will 
do is go back and we will work through that to make sure that 
the position we are taking is clear to the committee and what 
we are trying to do.
    Mr. Wittman. Got you. Very good. Yes, I am just looking at 
your letter of 1st of February. You also refer to L3 as a lead 
systems----
    General Bunch. And I misspoke, sir, and I will go back and 
clarify what we are doing, but it is a systems integrator role 
is what we are asking L3 to do, and I apologize for any 
confusion.
    Mr. Wittman. And I don't mean to be picking on this, but I 
do think it is critical as far as the role that the government 
and the Air Force is going to take in decision making here. And 
if you are looking at that there is an advantage to L3 as a 
systems integrator versus a lead systems integrator and where 
the decision making is going to take place and what role the 
Air Force will play or what it won't play I think is really 
something important for us to understand because this is a 
very, very critical system that we want to make sure gets 
integrated properly.
    General Bunch. Yes, sir.
    Mr. Wittman. And to make sure that we clearly define the 
Air Force's role and L3's role I believe is critical. So there 
does seem to be some dichotomy there, so I just want to make 
sure that we are all clear on this.
    General Bunch. So we will continue the dialogue on that, 
the thought process through that with L3 having been the system 
integrator for the last 15 years, they are the ones who know 
what the cross-deck requirements would be better than anyone 
else. That was the driver--that and the other factors, the time 
and all the other factors that I--sensitivity of the--of the 
equipment--mission equipment and the mission. Those were the 
drivers that led to the selection of them as the systems 
integrator.
    Mr. Wittman. Well, that is good to know because that was 
behind my question of what advantage you gain. You talk about 
them having base knowledge; you talk about them having dealt 
with these systems before. The key is, you know, where is the 
definition in role between the Air Force and L3 to make sure we 
get it right so we stay on time, we stay on performance, we 
make sure that the integration of these systems gets done 
properly.
    General Bunch. Yes, sir. And we are committed to making 
sure it is. And as I said, we are going to be actively involved 
and watching that and we will get reports, analyze all those 
things to make sure it works.
    One of the big drivers, as I said, sir--and I apologize for 
going over again--the timing of this is really critical to make 
sure we see--we are ready for the evolving threat, to make sure 
we can execute the mission.
    Mr. Wittman. I couldn't agree more. I think timing this 
here is critical to make sure there are no hiccups about what--
who is going to perform certain roles, because when there is we 
know that also elongates timeframes and can complicate things, 
so that would be great.
    If you would follow up with us, too, to redefine what you 
have stated to us today, I think that would be----
    General Bunch. Yes, sir.
    Mr. Wittman [continuing]. Very helpful to us.
    General Bunch. Yes, sir.
    Mr. Wittman. Very good. Are there any other questions from 
committee members for our panelists?
    If not, gentlemen, thank you so much for your leadership. 
Thank you for coming before us today and shining some light on 
these critical issues for the Air Force, and we continue to 
look forward to working with you as we go down these roles and 
making sure that these assets get delivered on time and on 
budget.
    And with that, we are adjourned.
    [Whereupon, at 9:00 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                              May 25, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 25, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 25, 2017

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. COURTNEY

    General Bunch. The FY18 President's Budget adequately supports 
ongoing B-52 modernization efforts. FY18 RDT&E and Procurement requests 
for B-52 decreased $52M from FY17 President's Budget request due to 
revised program estimates and schedule revisions.
    B-52 Modernization assures viability to perform current/future 
wartime missions by sustaining and modernizing the fleet to ensure 
relevance, lethality and survivability. The FY18 PB request continues 
B-52 modernization and addresses issues required to maintain nuclear 
and conventional credibility.   [See page 17.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 25, 2017

=======================================================================

      

      

                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. Directed energy offers a deep magazine and an 
affordable way to engage threats. Can you address how the Air Force is 
working with the other services to ensure synergy is achieved in 
program development? The Navy has a directed energy system deployed on 
the USS Ponce, is the Air Force working with the Navy to build on their 
operational findings? Describe the ways the Air Force is potentially 
fielding directed energy? Are there plans to work this capability into 
our current integrated air defenses?
    General Bunch. The Air Force has developed a Directed Energy Weapon 
(DEW) Flight Plan to identify activities required across the doctrine, 
organization, training, materiel, leadership, personnel, facilities, 
and policy spectrum to transition DEW technologies from the Science and 
Technology (S&T) portfolio to operationally deployed Air Force weapon 
systems in a deliberate manner to minimize cost and maximize efficacy.
    Signed by the Secretary of the Air Force and the Air Force Chief of 
Staff in May 2017, the DEW Flight Plan identifies the revolutionary 
opportunities provided by DEW technologies. The Air Force DEW Flight 
Plan also charts a course that enables the Air Force to explore and 
exploit the opportunities DEWs offer to accomplish future missions in 
support of national military objectives. It provides guidance for a 
range of coordinated follow-on activities across the Air Force 
enterprise, including an experimentation campaign focused on 
operationalizing DEWs. The plan builds a transition path from 
technology development to a fielded weapon system, and provides 
feedback to the S&T, acquisition, and operational communities on 
efforts needed to support transition. To ensure directed energy 
technologies transition from opportunity to full potential, the Air 
Force must maintain a preeminent posture in the development of those 
technologies while also exploring a variety of new operational concepts 
and strategic military effects that address emerging U.S. military 
vulnerabilities and opportunities.
    One of the principal ways that DEW synergy is maintained across the 
services is the Joint Directed Energy Transition Office, formerly the 
High Energy Laser Joint Technology Office, through its cross service 
technology efforts, Strategic Planning meeting, and Annual Review 
meeting. There are also many relevant presentations and sidebars at the 
various Directed Energy Professional Society meetings. The DEW subgroup 
of the Government-only Weapons Community of Interest is also a valuable 
resource. All of these provide opportunities for both senior officials 
and program managers to discuss matters regarding DEW technologies.
    The Air Force supplied some beam control technology to the Navy 
laser system on the USS Ponce and we will follow their effects and 
system reliability data. There are vast differences in the 
vulnerability of Service targets, which range from close-in rubber 
boats, drones, artillery, rockets, and missiles, to long range cruise 
missiles, aircraft, and air-to-air missiles. The Joint Directed Energy 
Transition Office maintains the principal effects data base for the 
Services.
    The Air Force is looking at several DEW applications with different 
fielding opportunities. One application is aircraft self-protection 
using lasers. This is one of our more challenging applications, as it 
requires significant progress in size, weight, power need and power on 
target, especially in modern fighters. Another application is airbase 
defense. The Army has a ground-based integrated Air Defense mission, 
for which the Air Force and Army are working a joint S&T effort in 
ground-based beam control. The Air Force is also looking at airborne 
directed energy capabilities to support this application, especially in 
remote locations. In addition, as part of the execution of the DEW 
Flight Plan, the Air Force recently issued a Capability Request for 
Information to assist in determining possible candidate systems for an 
upcoming FY18 directed energy counter-unmanned aircraft systems 
experiment. A third Air Force application is using high power 
microwaves to defeat electronic systems. The Air Force demonstrated 
this capability in 2013 from a cruise missile; the Air Force and the 
Navy now have a joint effort to demonstrate an advanced capability in a 
more appropriate platform.

                                  [all]
</pre></body></html>
